APPENDIX

APPENDICES
TABLE OF CONTENTS

Appendix A: Opinion, Amended, Ninth Circuit Court
of Appeals, Affirming District Court’s Order,
November 24, 2020. . . . . . . . . . . . . . . . . . . . . . . . . 1a
Appendix B: Order, Amended, United States District
Court for the Northern District of California,
Awarding Fees to Plaintiff, November 6, 2019 . . . 5a
Appendix C: Oral Opinions, by Court Transcript,
United States District Court for the Northern District
of California, Hearing, September 11, 2019 . . . . . 8a
Appendix D: Order, Ninth Circuit Court of Appeals,
Amending Memorandum of Decision Filed October 16,
2020, and Denying Petitioner 76 Orinda’s Petition for
Rehearing, November 24, 2020 . . . . . . . . . . . . . . 19a

1a
Appendix A
Appendix A
United States Court of Appeals for the Ninth Circuit
October 14, 2020*, Submitted, San Francisco,
California; October 16, 2020, Filed
No. 19-17241
825 Fed. Appx. 536 *; 2020 U.S. App. LEXIS 32674
**; 2020 WL 6112503
FRANCISCA MORALEZ,
Plaintiff-Appellee,
v.
76 ORINDA; et al.,
Defendants-Appellants.
Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING
THE CITATION TO UNPUBLISHED OPINIONS.
Subsequent History: As Amended November 24, 2020.
Prior History: [**1] Appeal from the United States
District Court for the Northern District of California.
D.C. No. 3:17-cv-03779-VC. Vince Chhabria, District
Judge, Presiding.
Disposition: AFFIRMED.
Counsel: For FRANCISCA MORALEZ, Plaintiff Appellee: Tanya Eugene Moore, Moore Law Firm, P.C.,
San Jose, CA.
1a

2a
Appendix A

For 76 ORINDA, SADIA GHANI IQBAL, NADEEM
GHANI IQBAL, BUSHRA BEGUM, Defendants Appellants: Andrew W. Shalaby, East Bay Law, El
Cerrito, CA.
Judges: Before: McKEOWN and NGUYEN, Circuit
Judges, and WHALEY,** District Judge.
Opinion
[*536] AMENDED MEMORANDUM*
76 Orinda, Sadia Ghani Iqbal, Nadeem Ghani Iqbal,
and Bushra Begum (together, [*537] "76 Orinda")
appeal the district court's orders denying their motion
to disqualify and awarding attorney's fees and costs to
Francisca Moralez following the settlement and
dismissal of her action brought under Title III of the
Americans with Disabilities Act ("ADA"), the
California Unruh Civil Rights Act, and the California
Health and Safety Code. The parties are familiar with
the facts, so we do not repeat them here. We have
jurisdiction pursuant to 28 U.S.C. § 1291, and we
affirm.

**The Honorable Robert H. Whaley, United States District Judge
for the Eastern District of Washington, sitting by designation.
*This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

3a
Appendix A
The district court did not abuse its discretion in
denying 76 Orinda's motion to disqualify. The district
judge's comments, which stem only from 76 Orinda's
counsel's [**2] behavior during the proceedings, fall
well below the threshold necessary to support a bias or
partiality challenge. See Liteky v. United States, 510
U.S. 540, 555, 114 S. Ct. 1147, 127 L. Ed. 2d 474
(1994) ("[J]udicial remarks during the course of a trial
that are critical or disapproving of, or even hostile to,
counsel, the parties, or their cases, ordinarily do not
support a bias or partiality challenge.").
Nor did the district court abuse its discretion in
awarding attorney's fees. Contrary to 76 Orinda's
contention, a plaintiff is not required to provide
additional evidence proving her claims, following
settlement, to obtain attorney's fees. The ADA
contains a straightforward fee-shifting provision that
allows a "prevailing party" to recover "a reasonable
attorney's fee, including litigation expenses, and costs
. . . ." 42 U.S.C. § 12205. 76 Orinda does not dispute
that Moralez is a prevailing party under the ADA. "A
prevailing plaintiff under the ADA should ordinarily
recover an attorney's fee unless special circumstances
would render such an award unjust." Jankey v. Poop
Deck, 537 F.3d 1122, 1130 (9th Cir. 2008) (internal
quotation marks omitted). No special circumstances
rendered an award unjust here, and the district court's
fee award was reasonable. See Vogel v. Harbor Plaza
Ctr., LLC, 893 F.3d 1152, 1158 (9th Cir. 2018).

4a
Appendix A
Finally, the district court did not err in failing to
reconcile ADA case law [**3] with California Senate
Bill 269. Subject to exceptions that do not apply here,
we will not consider an issue raised for the first time
on appeal. See Bolker v. Comm'r of Internal Revenue,
760 F.2d 1039, 1042 (9th Cir. 1985). 76 Orinda waived
this issue by failing to raise the argument below.
AFFIRMED.

5a
Appendix B
Appendix B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Case No. 17-cv-03779-VC

FRANCISCA MORALEZ,
Plaintiff,
v.
76 ORINDA; et al.,
Defendants.

AMENDED ORDER RE MOTION FOR ATTORNEYS'
FEES
Re: Dkt. Nos. 107, 128
The motion for attorneys' fees and costs is
granted in part. Although the total amount of fees and
costs is quite high for a case of this type, that is
primarily because (as the written record and the
hearing transcripts will reflect) the defense's approach
to the case was ill-conceived, intransigent, and
inefficient. In addition, defense counsel appeared to
lack the basic legal or procedural knowledge necessary
to move the case to resolution, not to mention being

6a
Appendix B
totally unprepared for trial. All of this required the
plaintiff to incur more fees and costs than would
normally be expected. It may well be that none of this
is the fault of the defendants themselves, but neither
is it the fault of the plaintiff or her counsel, and thus
defense counsel's conduct cannot justify a reduction in
the plaintiff's fee award. Moreover, the hourly rates
billed by the plaintiff's counsel are reasonable,
particularly given that the work was of higher quality
than is typical in similar disability access cases.
However, the quantity of travel time billed by
Mr. Best at his full hourly rate is unreasonable given
the abundance of local counsel available to prosecute
this case, and it will therefore be reduced by 50%. See
Dkt. No. 122 (documenting 47.3 hours of travel time
billed at $550 per hour, totaling $26,015); Dkt. No.
107-2, at 92-134; see also Transbay Auto Serv., Inc. v.
Chevron U.S.A., Inc., No. C 09-04932 SI, 2013 WL
843036, at *7 (N.D. Cal. Mar. 6, 2013) ("[T]he Court
may in its discretion reduce the fees owed related to
travel . . . ."); Reyes v. Bakery & Confectionery Union &
Indus. Int'l Pension Fund, 281 F. Supp. 3d 833, 856
(N.D. Cal. 2017) (citing Transbay). Additionally, the
costs billed by plaintiff's counsel for hotel and food
while in San Francisco are unreasonable, and they will
be reduced by 50%. See Dkt. No. 107-2, at 167-72
(amounting to $3,151.86). Thus, the plaintiff is
awarded $146,806 in attorneys' fees, and $17,451.27 in
costs. See Dkt Nos. 107, 110-1, 121.

7a
Appendix B
The fees and costs are to be assessed against the
76 Orinda gas station, and not against the individual
defendants. See Dkt No. 107-2 at 42.
IT IS SO ORDERED.
Dated: November 6, 2019
Vince Chhabria
United States District
Judge

8a
Appendix C
Appendix C

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Case No. 17-cv-03779-VC

FRANCISCA MORALEZ,
Plaintiff,
v.
76 ORINDA; et al.,
Defendants.
San Francisco, California
Wednesday, September 11, 2019

TRANSCRIPT OF PROCEEDINGS OF THE
OFFICIAL ELECTRONIC SOUND RECORDING
10:01 - 10:31 = 30 MINUTES

9a
Appendix C
APPEARANCES:
For Plaintiff:
Moore Law Firm, P.C.
332 North Second Street
San Jose, California 95112
BY: TANYA EUGENE
MOORE, ESQ.
For Defendants:
East Bay Law
7525 Leviston Avenue
El Cerrito, California 94530
BY: ANDREW W.
SHALABY, ESQ.
Transcribed by:
Echo Reporting, Inc.
Contracted Court Reporter /
Transcriber
echoreporeting@yahoo.com
Wednesday, September 11, 2019

///
///

10:01 a.m.

10a
Appendix C
PROCEEDINGS
[All citations are to the court transcript, document
number 145]
[Transcript p.2:19-20] THE COURT: Okay. I am glad
that your clients are here.
[Transcript p.3:6-24] THE COURT: And it seems that
the only reason that, as far as I can tell from
everything I experienced and everything I have read in
connection with this fee motion, it seems that the only
reason this case did not get resolved quickly, and the
only reason why the Plaintiff racked up so many
attorney's fees is defense counsel's incompetence. And
I believe that the -- your clients very likely have a
malpractice against you. One question I have is
whether I could require you to pay the attorney's fees
as a sanction for your conduct, instead of your clients.
But I suspect that I don't have the authority to do
that, unfortunately. But I do think that it is very
likely -- I mean I'm likely to report you to the
California Bar Association for the way you conducted
this case and I believe that your clients have a
malpractice action against you and that they should
not have to pay a dime of the attorney's fees for the
Plaintiff. I think you should be the one who pays them
for the way you conducted yourself.
///

11a
Appendix C
[Transcript p.10:2-6] THE COURT: Oh I think there's
very little doubt that you have committed malpractice
here, yes. I mean the -- merely making the Rule 68
offer that you made, and refusing to agree to a
judgment that included injunctive relief, in itself that's
probably malpractice.
[Transcript p.10:10-22] MR. SHALABY: They came in
there and they said that the sloping for the wheelchair
ramp was off by maybe 1- percent sometimes. Maybe
sometimes .6-percent.
Is that an ADA noncompliance? Absolutely, it is. The ADA will say, for
example, you need to have a slope not to exceed, let's
say 2 1/2-percent. And they might be at 3-percent or
3.1-percent. Does that entitle an ADA plaintiff to
relief? It does not. And see, that's where the confusion
is, your Honor. Just because you have an ADA
non-compliance doesn't mean it entitles them to relief.
Now, we didn't say we're not going to do it. We said it
didn't apply to her. We win the case if it doesn't apply
to her. We said we were going to do it anyway.
[Transcript p.13:1 to p.14:16] MR. SHALABY: They
came into this courtroom on June 24th. A very large
amount of money was spent on replacing those gas
pumps, and you remember Mr. Best stood right there
and he told you they were still not in compliance. It’s
on the transcript. We only got one of two sessions on
the transcript. It’s in the morning transcript. And
then you heard what you did. You said, "Mr. Shalaby,

12a
Appendix C
this is your fault. Have you ever done a trial before?
It looks like you've never done a trial before and
this is all of your fault." And now you're doing the
same thing. And then we went back to the room and
after he made a comment that he's going to be very
careful, he came back in here and now it's like, "Oh,
guess what? The pumps are fine. There's no violation,
there's nothing wrong with these pumps." Same with
the cutoff switch and so many other items."Nothing
wrong with the cutoff switch." [Quotations added.] A
person in a wheelchair doesn't get to cutoff the fuel
pumps. He [Plaintiff's counsel] puts it on there. He
pleads it on his complaint. He says "injunctive relief"
[quotations added] -- they're entitled to injunctive
relief on it. He's billed attorney's fees for it. They're
not entitled to that. They're not entitled to many
many items.
"Floor clearance adjacent to public telephone
contains excessive slopes." And then when we come
back [from settlement conference room], "Oh no,
they've repaired it." It never had it in the first place.
"Restroom door closes too quickly."
And then when
they come back [from settlement conference room],
"Withdrawn." "Restroom door closing mechanism
requires tight grasping." They come back [from
settlement conference room], "They fixed it and we're
waiving that." "Plumbing beneath restroom sink not
insulated."
They come back [from settlement
conference room], they waived that.
If you look at this -- I gave you a table of this

13a
Appendix C
and I cited to the transcript on this and I pointed out,
they made all of these allegations of things that did
not exist, that do not exist or that were remedied.
They billed attorney's fees for it. It's on their -- it's on
their invoice. They shouldn't have billed anything for
these things.
They shouldn't have made the
allegations in the first place. And for some reason, I
think the Court's under the impression that I was
supposed to stipulate that there would be corrections
to things that either didn't exist, or had already been
repaired before the first trial date, not the second, not
the third. Before the first trial date.
[Transcript p.14:17] THE COURT: No, I'm not under
that impression.
[Transcript p.14:18- p15:1] MR. SHALABY: You've got
somebody here who has made allegations, which are
largely, largely, largely false. Not just allegations of
things that were wrong with the property, but
allegations of things that didn't impact her at all. And
not just allegations of hardships and discriminations
that she didn't experience in the first place. All you
have to do is compare the first complaint to the
amended complaint. There's case law on this and it
says here -[Transcript p.15:21-p.16:4] MR. SHALABY: The first
complaint has on it, "Aisle next to parking stalls..." It
has eight items.

14a
Appendix C
"Aisle next to parking stall too narrow." [Closing
quotation added.] "Plaintiff could not find a ramp to
the maintenance entrance." [Quotations added.]
"Rough/uneven surface on the path of travel."
[Quotations added.] "Side aisle in facility too
narrow." [Quotations added.]
These are all in my brief, by the way.
[Transcript p.16:5-8] THE COURT: Okay, but what
I'm -- here's the question I'm asking you. Let me -- let
me try and ask it one more time. You're asking me to
conduct a comparison of the first complaint to the
second complaint.
[Transcript p.16:9.] MR. SHALABY: Correct.
[Transcript p.16:10-12] THE COURT: And you're
saying that there are some differences between the two
that matter for purposes of this attorney's fees motion,
I take it?
[Transcript p.16:13] MR. SHALABY: Major, major.
[Transcript p.16:20-21] MR. SHALABY: The first
complaint alleges those violations that she says that
she personally experienced.
[Transcript p.16:22] THE COURT: Okay.
[Transcript p.16:23-24] MR. SHALABY: And there is

15a
Appendix C
-- it's small. I want to say eight items.It's small.
[Transcript p.17:8-19] THE COURT: So your -- your
main point, as it relates -- I mean on one level, it kind
of sounds like you're arguing that your client should
not have been held liable, but of course you've entered
a settlement agreement and you've agreed that the
Plaintiff is the prevailing party. So we're not -- we're
not here to re-litigate the merits of the case, but what
you -- if I understand you correctly, what you're saying
is that the Plaintiff grossly overreached in the lawsuit
and made allegations that, even if some of the
allegations had merit, made a number of allegations
that lacked merit and to that extent, should not be
permitted to recover attorney's fees?
[Transcript p.17:1-7] MR. SHALABY: The second one
was a laundry list. It's basically a big comprehensive
list. She hired an expert and went in there and came
up with a list. That's not allowed. I gave you the case
law, I'm going to give it to you again. The word -- the
words used by the Ninth Circuit "Wholesale audit of
the defendant's premises." This is Chapman vs. Pier
1 Imports 631 f.3d 939.
[Transcript p.17:8-19] THE COURT: So your -- your
main point, as it relates -- I mean on one level, it kind
of sounds like you're arguing that your client should
not have been held liable, but of course you've entered
a settlement agreement and you've agreed that the

16a
Appendix C
Plaintiff is the prevailing party. So we're not -- we're
not here to re-litigate the merits of the case, but what
you -- if I understand you correctly, what you're saying
is that the Plaintiff grossly overreached in the lawsuit
and made allegations that, even if some of the
allegations had merit, made a number of allegations
that lacked merit and to that extent, should not be
permitted to recover attorney's fees?
[Transcript p.17:20] MR. SHALABY: Yes.
[Transcript p.18:12-p.19:5] THE COURT: But here's
-- here's what I don't understand. Speaking of your
Rule 11 motion, you know, I'm looking at this meet
and confer letter that you sent to the Plaintiff in
connection with the attorney's fees motion, and you
state that you're renewing your Rule 11 motion against
the Plaintiff and you say in that that, "To date no
declaration or evidence of any kind exists in the record
to show that Ms. Moralez experienced the ADA
barriers and was visiting the facility in good faith,
rather than as a business venture aimed at earning
income."But you already reached a settlement
agreement in the case and agreed that she was the
prevailing party. And now you're threatening to
sanction to her? You're threatening to file a sanctions
motion against her for filing a lawsuit that you've
already agreed she was the prevailing party in. I
mean this is one of the most bizarre things I have seen
in my five years on the bench.

17a
Appendix C
[Transcript p.20:5-7] MR. SHALABY: Rule 11
mandates truthfulness. It's not dependent on whether
you're a prevailing party or not, at all. It mandates
truthfulness.
[Transcript p.20:20-21:16] MR. SHALABY: You have
a meet and confer, you have an agreement she's a
prevailing party on the Unruh Act, which makes her a
prevailing party in the action. It certainly does not
make her a prevailing party on the gas pumps when
they say those gas pumps are out of compliance and
those need to be removed and redone again. She can't
be a prevailing party on every item. She's not a
prevailing party on every item. She's a prevailing
party on the Unruh Claim, which makes her a
prevailing party in the action. I gave the Court the
authority on that from the Ninth Circuit. And so for
somebody to come into your courtroom, your Honor,
and say, "Hey, you know, about these pumps, they've
been put up for a couple hundred thousand dollars or
something and they don't comply."And they do comply.
It's a Rule 11 violation and if you give somebody a Rule
11 motion saying, "Come on, this is not the truth,
you've got 21 days to retract it, and if you don't then
I'm entitled to sanctions against you." And if they
don't retract it within 21 days and they've got to plead
it on a complaint, for example, then yes, there's an
entitlement to Rule 11 sanctions. There's no question
about it. Even if they are the prevailing parties of the
action.

18a
Appendix C
[Transcript p.21] THE COURT: Okay.
[Transcript p.22:15-17] THE COURT: It sounds like
-- if you think the allegations were untrue, then it
sounds like you should have gone to trial instead of
settled.
[Transcript p.22:18-19] MR. SHALABY: That would
have been suicide after the -- the statements made by
the Court.
[Transcript p.22:20-25] THE COURT: Oh I don't
think so. I would not have held the incompetence of
their lawyer against them. I mean I would not hold
against the Defendants the incompetence of their
lawyer. I mean that happens all of the time in
courtrooms all across America. The judges make sure
not to hold it against the client that their lawyer is
incompetent.

19a
Appendix D
Appendix D
United States Court of Appeals for the Ninth Circuit
November 24, 2020, Filed
No. 19-17241
825 Fed. Appx. 536 *; 2020 U.S. App. LEXIS 32674
**; 2020 WL 6112503
FRANCISCA MORALEZ,
Plaintiff-Appellee,
v.
76 ORINDA; et al.,
Defendants-Appellants.
Prior History:
[*1] D.C. No. 3:17-cv-03779-VC.
Northern District of California, San Francisco.
Moralez v. 76 Orinda, 825 Fed. Appx. 536, 2020 U.S.
App. LEXIS 32674 (9th Cir. Cal., Oct. 16, 2020)
Counsel: For FRANCISCA MORALEZ, Plaintiff Appellee: Tanya Eugene Moore, Moore Law Firm, P.C.,
San Jose, CA.
For 76 ORINDA, SADIA GHANI IQBAL, NADEEM
GHANI IQBAL, BUSHRA BEGUM, Defendant Appellants: Andrew W. Shalaby, East Bay Law, El
Cerrito, CA.

20a
Appendix D
Judges: Before: McKEOWN and NGUYEN, Circuit
Judges, and WHALEY,* District Judge.

ORDER
The panel has voted to amend the memorandum
disposition filed in this case on October 16, 2020. The
amended memorandum disposition is attached hereto.
The panel votes to deny the petition for rehearing.
The full court has been advised of the petition for
rehearing and rehearing en banc and no judge has
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petition for panel rehearing and the petition for
rehearing en banc are denied. No further petitions for
rehearing or petitions for rehearing en banc will be
entertained.
The panel also votes to deny the motion to take judicial
notice.

* The Honorable Robert H. Whaley, United States District Judge
for theEastern District of Washington, sitting by designation

